      DEPARTMENT OF HEALTH & HUMAN SERVICES                             Office of Inspector General

                                                                       Washington, D.C. 20201




September 9, 2010

TO:           Donald M. Berwick, M.D.
              Administrator
              Centers for Medicare & Medicaid Services


FROM:         /George M. Reeb/
              Acting Deputy Inspector General for Audit Services


SUBJECT:      Review of Jurisdiction A Medicare Payments for Selected Durable Medical
              Equipment Claims With the KX Modifier for Calendar Year 2007
              (A-01-09-00528)


Attached, for your information, is an advance copy of our final report on Jurisdiction A Medicare
payments for selected durable medical equipment claims with the KX modifier for calendar year
2007. We will issue this report to National Heritage Insurance Company, the durable medical
equipment Medicare administrative contractor for Jurisdiction A, within 5 business days.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Robert A. Vito, Acting Assistant Inspector General for the Centers for
Medicare & Medicaid Audits, at (410) 786-7104 or through email at Robert.Vito@oig.hhs.gov
or Michael J. Armstrong, Regional Inspector General for Audit Services, Region I, at
(617) 565-2689 or through email at Michael.Armstrong@oig.hhs.gov. Please refer to report
number A-01-09-00528 in all correspondence.


Attachment
     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                          Office of Audit Services, Region I
                                                                          John F. Kennedy Federal Building
                                                                          Room 2425
                                                                          Boston, MA 02203



September 13, 2010

Report Number: A-01-09-00528

Ms. Anne Bockhoff Dalton
Vice President
NHIC, Corp.
75 Sgt. William B. Terry Drive
Hingham, MA 02043

Dear Ms. Dalton:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Jurisdiction A Medicare Payments for Selected
Durable Medical Equipment Claims With the KX Modifier for Calendar Year 2007. We will
forward a copy of this report to the HHS action official noted on the following page for review
and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Kimberly D. Rapoza, Audit Manager, at (617) 565-2695 or through email at
Kimberly.Rapoza@oig.hhs.gov. Please refer to report number A-01-09-00528 in all
correspondence.

                                             Sincerely,



                                             /Michael J. Armstrong/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 - Ms. Anne Bockhoff Dalton


Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, MO 64106
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL




 REVIEW OF JURISDICTION A
 MEDICARE PAYMENTS FOR
SELECTED DURABLE MEDICAL
EQUIPMENT CLAIMS WITH THE
      KX MODIFIER FOR
    CALENDAR YEAR 2007




                      Daniel R. Levinson
                       Inspector General

                       September 2010
                        A-01-09-00528
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to sections 1832(a)(1) and 1861(n) of the Social Security Act (the Act), Medicare
Part B provides for the coverage of durable medical equipment, prosthetics, orthotics, and
supplies (DMEPOS). As a result of the Medicare Prescription Drug, Improvement, and
Modernization Act of 2003, the Centers for Medicare & Medicaid Services (CMS) contracted
with four durable medical equipment Medicare administrative contractors (DME MAC) to
process and pay Medicare Part B claims for DMEPOS. These DME MACs replaced the Durable
Medical Equipment Regional Carriers. Also, CMS contracts with Palmetto Government
Benefits Administrators, LLC, to serve as the National Supplier Clearinghouse. The National
Supplier Clearinghouse is responsible for enrolling and reenrolling DMEPOS suppliers.

Under the statutory and policy framework of the Act, the Medicare National Coverage
Determinations Manual defines DME as equipment that can withstand repeated use, serves a
medical purpose, is generally not useful to a person in the absence of illness or injury, and is
appropriate for use in a patient’s home. For certain DMEPOS, suppliers must use the KX
modifier on filed claims. The KX modifier indicates that the claim meets the Medicare coverage
criteria and the supplier has the required documentation on file. While suppliers must have a
written physician’s order and proof of delivery for all DMEPOS, suppliers must have additional
documentation on file for items requiring the KX modifier. For example, respiratory assist
devices also require documentation that a sleep study was performed before the date on the
physician’s order.

On January 6, 2006, CMS awarded the DME MAC contract for Jurisdiction A to National
Heritage Insurance Company (NHIC). NHIC assumed full responsibility for administering the
DME MAC work and began processing DMEPOS claims for Jurisdiction A as of July 1, 2006.

NHIC processed approximately $1.5 billion in Medicare DMEPOS claims with calendar year
2007 dates of service. This audit focused on $96,722,670 of Medicare paid claims processed by
NHIC for therapeutic shoes for diabetics, continuous positive airway pressure systems,
respiratory assist devices, and pressure reducing support surfaces (groups 1 and 2) that included
the KX modifier.

OBJECTIVE

Our objective was to determine whether the KX modifier was effective in ensuring that suppliers
of DMEPOS who submitted claims to NHIC had the required supporting documentation on file.

SUMMARY OF FINDINGS

The KX modifier was not effective in ensuring that suppliers of DMEPOS who submitted claims
to NHIC had the required supporting documentation on file. Of the 100 sampled items, suppliers
had the required documentation on file for 37 items. Suppliers did not have the required




                                                i
documentation on file for the remaining 63 items. As a result, NHIC made unallowable
payments totaling $5,296 for 63 of the 100 sampled items.

The types of missing documentation included:

   •   proof of delivery (24 of 100 items),

   •   physician’s order (39 of 100 items),

   •   use or compliant use followup documentation (20 of 72 applicable items),

   •   sleep study (4 of 72 applicable items), and

   •   physician’s statement (9 of 28 applicable items).

For 25 of the 63 items, suppliers were missing multiple required documents.

NHIC did not detect these errors because NHIC’s electronic edits were not effective for
determining whether suppliers had the required documentation on file when they used the KX
modifier on claims. The edits could only determine whether the required KX modifier was on
the claim. Based on our sample, we estimated that NHIC paid approximately $54 million to
suppliers who did not have the required documentation on file to support the DMEPOS items
with 2007 dates of service.

RECOMMENDATIONS

We recommend that NHIC:

   •   recover the $5,296 in payments for specific DMEPOS items claimed for which the
       suppliers did not have the required documentation,

   •   review other payments for DMEPOS related to our unallowable sample items and recover
       any additional unallowable payments,

   •   notify CMS of the 24 suppliers who did not meet the supplier standard for maintaining
       proof of delivery so CMS can take appropriate action, and

   •   develop a corrective action plan to improve supplier compliance with the KX modifier
       and potentially save an estimated $54 million.

AUDITEE COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments to the draft report, NHIC concurred with the first three recommendations
but did not concur with the fourth recommendation. We acknowledge NHIC’s comments;


                                                ii
however, we maintain that NHIC should take additional steps to improve supplier compliance
with the KX modifier. NHIC’s comments are included in their entirety as Appendix D.




                                             iii
                                                  TABLE OF CONTENTS
                                                                                                                                       Page

INTRODUCTION....................................................................................................................... 1

          BACKGROUND .............................................................................................................. 1
              Contracts for Processing Medicare Durable Medical Equipment,
               Prosthetics, Orthotics, and Supplies Claims ...................................................... 1
              KX Modifier Used for Durable Medical Equipment, Prosthetics,
               Orthotics, and Supplies Claims Processing ....................................................... 1

          OBJECTIVE, SCOPE, AND METHODOLOGY ............................................................ 3
               Objective ............................................................................................................... 3
               Scope ..................................................................................................................... 3
               Methodology ......................................................................................................... 3

FINDINGS AND RECOMMENDATIONS ............................................................................. 4

          MISSING REQUIRED DOCUMENTATION ................................................................. 5
               Proof of Delivery .................................................................................................. 5
               Physician’s Order .................................................................................................. 5
               Use or Compliant Use Followup Documentation ................................................. 5
               Sleep Study ........................................................................................................... 6
               Physician’s Statement ........................................................................................... 6

          KX MODIFIER SYSTEM EDITS .................................................................................. 6

          EFFECT OF UNALLOWABLE PAYMENTS ................................................................ 7

          RECOMMENDATIONS .................................................................................................. 7

          AUDITEE COMMENTS.................................................................................................. 7

          OFFICE OF INSPECTOR GENERAL RESPONSE ....................................................... 7

APPENDIXES

          A: SAMPLING METHODOLOGY

          B: SAMPLE RESULTS AND ESTIMATES

          C: ERROR DETAILS

          D: AUDITEE COMMENTS




                                                                     iv
                                                 INTRODUCTION

BACKGROUND

The Medicare program, established by Title XVIII of the Social Security Act (the Act) in 1965
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program. Pursuant to sections 1832(a)(1) and 1861(n) of the Act,
Medicare Part B provides for the coverage of durable medical equipment, prosthetics, orthotics,
and supplies (DMEPOS).

As a result of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003,
CMS contracted with four durable medical equipment Medicare administrative contractors
(DME MAC) to process and pay Medicare Part B claims for DMEPOS. These DME MACs
replaced the Durable Medical Equipment Regional Carriers (DMERC). Also, CMS contracts
with Palmetto Government Benefits Administrators, LLC, to serve as the National Supplier
Clearinghouse. The National Supplier Clearinghouse is responsible for enrolling and reenrolling
DMEPOS suppliers. CMS will revoke a supplier’s billing privileges if it finds that the supplier
does not meet the supplier standards (42 CFR § 424.57(c) and (d)). 1

Contracts for Processing Medicare Durable Medical Equipment, Prosthetics, Orthotics,
and Supplies Claims

On January 6, 2006, CMS awarded the DME MAC contract for Jurisdiction A to National
Heritage Insurance Company (NHIC). NHIC assumed full responsibility for administering the
DME MAC work and began processing DMEPOS claims for Jurisdiction A as of July 1, 2006.
NHIC processes DMEPOS claims for Connecticut, Delaware, District of Columbia, Maine,
Maryland, Massachusetts, New Hampshire, New Jersey, New York, Pennsylvania, Rhode Island,
and Vermont.

KX Modifier Used for Durable Medical Equipment, Prosthetics, Orthotics, and Supplies
Claims Processing

National Coverage Determinations (NCD) describe the circumstances for Medicare coverage
nationwide for specific medical service procedures or devices, including DMEPOS, and
generally outline the conditions under which a service or device is considered covered. The
Medicare National Coverage Determinations Manual (Pub. No. 100-03, chapter 1, section
280.1) defines DMEPOS as equipment that can withstand repeated use, serves a medical
purpose, is generally not useful to a person in the absence of illness or injury, and is appropriate
for use in a patient’s home.

Contractors develop supplier manuals, Local Coverage Determinations (LCD), and Policy
Articles for covered DMEPOS items. These materials specify under what clinical circumstances
the DMEPOS item is considered to be reasonable and necessary. For covered DMEPOS items

1
    Federal requirements referenced in this document are the ones that were in effect during our audit period.



                                                            1
(including therapeutic shoes for diabetics (therapeutic shoes), continuous positive airway
pressure systems (CPAP), respiratory assist devices (RAD), and pressure reducing support
surfaces (groups 1 and 2) (PRSS)), 2 the LCDs require a KX modifier be added to the claims
before they can be paid. By adding the KX modifier, the supplier attests that the claim meets the
Medicare coverage criteria and that the specific required documentation, which varies based on
the DMEPOS item, is on file at the supplier before submitting the claim to the DME MAC. This
documentation requirement includes the written physician’s order and proof of delivery that are
required for all DMEPOS, as well as additional documentation such as a sleep study for a RAD
claim.

Through supplier manuals, LCDs, and Internet postings, the contractors instructed the suppliers
to use the KX modifier only if the suppliers have the required documentation on file. However,
if the KX modifier is not used with claims for DMEPOS that require it, the claims will be denied.

This audit focused on claims paid by NHIC for therapeutic shoes, CPAPs, RADs, and PRSS.

    Documentation Requirements for Selected Durable Medical Equipment, Prosthetics,
                      Orthotics, and Supplies Requiring the KX Modifier
   Documentation
 Required to be on                                   Therapeutic
   File at Supplier            Required by              Shoes      CPAP   RAD PRSS
                       -Program Integrity
Physician’s Order        Manual (PIM),
                                                          X           X    X        X
(written, signed, and    Pub. No. 100-08, chapter 5
dated)                 -LCDs
                       -42 CFR § 424.57(c)(12)
                                                          X           X    X        X
Proof of Delivery      -PIM, chapter 4
Statement of
Treating/Certifying    -The Act, § 1861(s)(12)
                                                          X                         X
Physician Before        (A-C)
Billing                -LCDs and Policy Articles
Polysomnography
(sleep study) Before -NCD                                             X    X
Physician’s Order      -LCDs
Use or Compliant
Use Followup
Statement of                                                          X    X
Physician and/or
Beneficiary            -LCDs




2
 These DMEPOS are included in the Level II Healthcare Common Procedure Coding System, which is a
comprehensive, standardized system that classifies similar medical products into categories for efficient claims
processing. It is the standardized coding system used for describing, identifying, and preparing claims for
DMEPOS.

                                                          2
OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the KX modifier was effective in ensuring that suppliers
of DMEPOS who submitted claims to NHIC had the required supporting documentation on file.

Scope

NHIC processed approximately $1.5 billion in Medicare DMEPOS claims with calendar year
2007 dates of service. This audit focused on $96,722,670 of these Medicare paid claims for
therapeutic shoes, CPAPs, RADs, and PRSS that included the KX modifier.

We limited our review of internal controls to gaining an understanding of the contractor’s
processing of selected DMEPOS claims that were submitted with the KX modifier. We did not
determine whether the sample items met other Medicare coverage criteria, such as medical
necessity.

From August 2009 through December 2009, we conducted fieldwork at NHIC offices in
Hingham, Massachusetts, and Los Angeles, California, and at suppliers’ offices in 10 States.

Methodology

To accomplish our audit objective, we:

       •   reviewed applicable Federal laws, regulations, and guidance;

       •   interviewed NHIC officials concerning the manual and electronic claims processing
           procedures for claims for therapeutic shoes, CPAPs, RADs, and PRSS with the KX
           modifier and NHIC’s edits in the claims processing system to ensure that claims were
           adjudicated;

       •   interviewed NHIC officials concerning the education and training specific to the KX
           modifier they provided to the suppliers of therapeutic shoes, CPAPs, RADs, and PRSS;

       •   selected a simple random sample of 100 items from four categories of DMEPOS
           (Appendix A);

       •   made unannounced visits to the 92 suppliers 3 to obtain their documentation supporting
           the use of the KX modifier;

       •   reviewed the suppliers’ documentation for the sample items to determine whether it met
           the documentation requirements for using the KX modifier; and

3
    Eight of the ninety-two suppliers had two items in the sample.


                                                            3
       •   requested NHIC’s medical review staff review the documentation provided by the
           suppliers for those sample items that we determined did not meet the documentation
           requirements for use of the KX modifier.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                 FINDINGS AND RECOMMENDATIONS

The KX modifier was not effective in ensuring that suppliers of DMEPOS who submitted claims
to NHIC had the required supporting documentation on file. Of the 100 sampled items, suppliers
had the required documentation on file for 37 items. 4 Suppliers did not have the required
documentation on file for the remaining 63 items. As a result, NHIC made unallowable
payments totaling $5,296 for 63 of the 100 sampled items.

The types of missing documentation included:

       •   proof of delivery (24 of 100 items),

       •   physician’s order (39 of 100 items),

       •   use or compliant use followup documentation (20 of 72 applicable items),

       •   sleep study (4 of 72 applicable items), and

       •   physician’s statement (9 of 28 applicable items). 5

Additional details on the results of the sampled items are provided in Appendixes B and C.

NHIC did not detect these errors because NHIC’s electronic edits were not effective for
determining whether suppliers had the required documentation on file when they used the KX
modifier on claims. The edits could only determine whether the required KX modifier was on
the claim. Based on our sample, we estimated that NHIC paid approximately $54 million to
suppliers who did not have the required documentation on file to support the DMEPOS items
with 2007 dates of service.




4
    Two of these thirty-seven sampled items were from suppliers who were no longer active.
5
    For 25 of the 63 items, suppliers were missing multiple required documents.

                                                           4
MISSING REQUIRED DOCUMENTATION

Proof of Delivery

Pursuant to the supplier standard (42 CFR § 424.57(c)(12)), the supplier “[m]ust be responsible
for the delivery of Medicare covered items to beneficiaries and maintain proof of delivery.”
Also, the PIM, chapter 4, section 4.26, requires suppliers to maintain proof of delivery
documentation in their files for 7 years. Section 4.26.1 outlines proof of delivery requirements
for different methods of delivery. Section 4.26 also states that, for “any services, which do not
have proof of delivery from the supplier, such claimed items and services shall be denied and
overpayments recovered.”

For 24 of the 100 items, suppliers did not have proof of delivery documentation on file to support
billing for the DMEPOS. In all 24 instances, at least 1 of the following deficiencies occurred:
the delivery documentation was missing, the delivery documentation was not signed and dated
by the beneficiary or his or her designee, or the documentation for shipped items such as tracking
numbers or the supplier’s invoice was missing.

Physician’s Order

The PIM, chapter 5, sections 5.2.1 and 5.2.2, state that all DMEPOS suppliers are required to
keep on file a physician’s order. The treating physician must sign and date the order. Section
5.2.3 states that if the supplier does not have a written order signed and dated by the treating
physician before billing Medicare, the item will be denied.

For 39 of the 100 items, suppliers did not have a physician’s order on file to support billing for
the DMEPOS. In all 39 instances, at least 1 of the following deficiencies occurred: the order
was missing, the order was not signed and dated by the physician, or the DMEPOS item was not
listed on the order.

Use or Compliant Use Followup Documentation

The LCDs for the CPAP effective March 1, 2006, June 1, 2007, and July 1, 2007, and the LCDs
for the RAD effective April 1, 2006, June 1, 2007, and July 1, 2007, state that, for an E0601
(CPAP) and an E0470 (RAD) to be covered beyond the first 3 months of therapy, the supplier
must ascertain no sooner than the 61st day after initiating therapy that the CPAP is being used
and that the RAD is being compliantly used. For the CPAP, either the beneficiary or the treating
physician must confirm that the beneficiary is continuing to use the CPAP, and the supplier must
maintain documentation that the requirement has been met. For the RAD, the supplier must
obtain signed statements from both the treating physician and the beneficiary stating that the
RAD is being compliantly used. 6 The LCDs state that continued coverage of the device will be
denied if the requirements are not met.




6
    The LCD defines “compliantly used” for a RAD as an average usage of 4 hours out of 24 hours.

                                                         5
For 20 of the 72 applicable items in our sample, suppliers did not have the use or compliant use
followup documentation on file to support billing for the DMEPOS. In all 20 instances, at least
1 of the following deficiencies occurred: the use or compliant use followup documentation was
missing, the use or compliant use followup was done within 60 days after initiating therapy, the
statement(s) required to be completed by the treating physician and/or the beneficiary were
missing for the RAD, or the item was billed after the first 3 months but before the supplier
obtained use or compliant use followup documentation.

Sleep Study

The LCDs for the CPAP (E0601), effective March 1, 2006, June 1, 2007, and July 1, 2007, and
the RAD (E0470) effective April 1, 2006, June 1, 2007, and July 1, 2007, require that the
beneficiary have a documented polysomnographic study. Additionally, polysomnographic
studies must not be performed by a DMEPOS supplier.

For 4 of the 72 applicable items, suppliers did not have sleep study documentation on file to
support billing for the DMEPOS. In all four instances, the sleep study documentation was
missing.

Physician’s Statement

Pursuant to the Act, § 1861(s)(12)(A), the physician must certify that the patient meets specific
criteria for therapeutic shoes. The LCDs and Policy Articles for therapeutic shoes and PRSS,
groups 1 and 2, state that DMEPOS items are covered if the supplier obtains a signed and dated
statement from the certifying or treating physician 7 saying the patient meets specific criteria. 8
The physician’s statement must be signed and dated some time during the year before the date of
service for therapeutic shoes, and the Policy Articles state that the items will be denied if the
requirements are not met.

For 9 of the 28 applicable items in our sample requiring a physician’s statement, suppliers did
not have the physicians’ statements on file to support billing for the DMEPOS. In all nine
instances, at least one of the following deficiencies occurred: the physician’s statement of
medical need was missing, was incomplete, or was not timely.

KX MODIFIER SYSTEM EDITS

The LCDs require DMEPOS suppliers to include the KX modifier on claims submitted for
therapeutic shoes, CPAPs, RADs, and PRSS when the “specific required documentation is on
file.” Use of the KX modifier constitutes a statement that the suppliers have the documentation
on file that the policy requires for the particular item or service.
7
 The certifying or treating physician is the physician who treats the underlying condition that requires the use of the
DMEPOS.
8
 For therapeutic shoes, LCDs were effective March 1, 2006, June 1, 2007, and July 1, 2007, and Policy Articles
were effective January 1, 2006, June 1, 2007, and July 1, 2007. For PRSS (group 1 only), LCDs were effective
January 1, 2007, and June 1, 2007, and a Policy Article was effective January 1, 2007. For PRSS (group 2 only),
LCDs were effective March 1, 2006, and July 1, 2007, and a Policy Article was effective March 1, 2006.

                                                           6
NHIC established electronic edits to evaluate the claims submitted by the DMEPOS suppliers.
These edits could only determine whether the required KX modifier was on the claim and were
not effective for determining whether suppliers had the required documentation on file when
they used the KX modifier on claims.

EFFECT OF UNALLOWABLE PAYMENTS

For 63 of the 100 items in our sample, suppliers who did not have the required documentation on
file to support their use of the KX modifier received $5,296 in payments. Based on our sample,
we estimated that NHIC paid approximately $54 million in unallowable Medicare payments to
DMEPOS suppliers with 2007 dates of service.

RECOMMENDATIONS

We recommend that NHIC:

   •   recover the $5,296 in payments for specific DMEPOS items claimed for which the
       suppliers did not have the required documentation,

   •   review other payments for DMEPOS related to our unallowable sample items and recover
       any additional unallowable payments,

   •   notify CMS of the 24 suppliers who did not meet the supplier standard for maintaining
       proof of delivery so CMS can take appropriate action, and

   •   develop a corrective action plan to improve supplier compliance with the KX modifier
       and potentially save an estimated $54 million.

AUDITEE COMMENTS

In written comments to the draft report, NHIC concurred with our first three recommendations
and listed the actions it intends to take. NHIC did not concur with the fourth recommendation to
“develop a corrective action plan to improve supplier compliance with the KX modifier and
potentially save an estimated $54 million,” and cited examples of educational and error rate
reduction efforts it has undertaken. NHIC also stated that the KX modifier is intended as a
self-certification mechanism rather than an editing tool to determine the veracity and
appropriateness of medical records documentation. NHIC’s comments are included in their
entirety as Appendix D.

OFFICE OF INSPECTOR GENERAL RESPONSE

We acknowledge NHIC’s response regarding the intention of the KX modifier and the electronic
edits. We recognize the education and error rate reduction efforts that NHIC has undertaken.
However, the error categories that are the focus of NHIC’s error rate reduction efforts do not
include the types of DMEPOS addressed in this review, and we maintain that NHIC should take
additional steps to improve supplier compliance with the KX modifier.

                                               7
APPENDIXES
                      APPENDIX A: SAMPLING METHODOLOGY

POPULATION

The population consisted of durable medical equipment, prosthetics, orthotics, and supplies
(DMEPOS) items for the year ending December 31, 2007, that DMEPOS suppliers claimed for
payment using the KX modifier under Medicare Part B.

SAMPLE FRAME

The sampling frame consisted of 1,020,402 line items totaling $96,722,670 for the year ending
December 31, 2007. These items were for specific categories of DMEPOS (therapeutic shoes for
diabetics, continuous positive airway pressure systems, respiratory assist devices, and pressure
reducing support surfaces (groups 1 and 2)) claimed for payment using the KX modifier under
Medicare Part B.

SAMPLE UNIT

The sample unit was a line item.

SAMPLE DESIGN

We used a simple random sample.

SAMPLE SIZE

We selected a sample of 100 line items.

SOURCE OF RANDOM NUMBERS

We generated the random numbers with the Office of the Inspector General (OIG), Office of
Audit Services (OAS), statistical software.

METHOD OF SELECTING SAMPLE ITEMS

We consecutively numbered the sampling frame. After generating 100 random numbers, we
selected the corresponding frame items.

ESTIMATION METHODOLOGY

We used OIG/OAS statistical software to estimate the amount of potentially unallowable
payments.
               APPENDIX B: SAMPLE RESULTS AND ESTIMATES

                                 SAMPLE RESULTS

                                                           Number of        Value of
 Frame                      Sample         Value of        Unallowable     Unallowable
   Size     Frame Value      Size          Sample           Payments        Payments
1,020,402   $96,722,670       100          $10,373             63            $5,296



                  ESTIMATES OF UNALLOWABLE PAYMENTS
                (Limits Calculated for a 90-Percent Confidence Interval)

                          Point estimate     $54,040,694
                          Lower limit         42,702,383
                          Upper limit         65,379,005
                                                           APPENDIX C: ERROR DETAILS


                                                             DMEPOS         Total                       Number of Errors                         Line Items
                     TYPES OF                                 Required        In                                                                 with Only
               WSSING DOCUMENTATION                              Fa,        Sample       Total        CPAP         TS'        RAD 
      PRSS    One Error 

Proof of Delivery                                                All          100                24       15              5        4
        0                5

Physician's Prescription/Order                                   All          100                39       26              6        7
        0              18 

Use or Compliant Use Follow-up Documentation                 CPAP,RAD         72                 20       14              0        6
        0              10 

SI,'I' Study                                                 CPAP, RAD        72                  4           2           0        2
        0                1

Physician's    CertifYin~   Statement                         TS, PRSS        28                  9           0           8        0
        1                4


    Total Errors (Duplicated COlUlt)                                                             9.       57             19       19 
       1              38 




                  CATEGORIES OFDME                             Dollars      Items    Items            Items        Dollars     1
       2            3               4          Multiple 

                                                               Tested       Tested Allowed        t Errors        in Error    Error 
 Errors       Errors          Errors       Errors ::: 

Continuous Positive AiIWay Pressure Systems                     $3,720.14           56           19       37 $2,342.95            22 
      11                3             1           15 

Therapeutic Shoes for Diabetics                                  2,701.41           24           11       13       1,168.06        7
        6                0         0                6

Respiratory Assist Devices                                       2,168.44           16            4       12       1,362.93        8
        2                1             1            4

Pressure Reducing Support Surfaces (groups 1 and 2)              1,782.63           4             3           1     422.08         1
        0                0         0                0


    Totals                                                     $10,372.62       100              37       .3 $5,296.02            38 
      19                4         2               25 



* Therapeutic shoes are a one-time purchase. 

t   Two of these thirty-seven sampled items were for suppliers who were no longer active and were considered non-errors. 

t Twenty-five of the sixty-three ooallowable sampled items had multiple errors. 


DMEPOS = durable medical equipment, prosthetics, orthotics , and supplies
CPAP = continuous positive airway pressure systems
TS = therapeutic shoes for diabetics
RAD = respiratory assist devices
PRSS = pressure reducing support surfaces (groups 1 and 2)
                                     APPENDIX D: AUDITEE COMMENTS                                                         Page 1 of 4


                                                                                               Durable Medical Equipment
                                                                                        Medicare Administrative Contractor
                                                                                                    Phone: (781) 741-3029



June 22, 2010


Department of Health & Human Services
Office of Inspector General
Office of Audit Services, Region 1
John F Kennedy Federal Building
Boston, MA 02203

Attention:                    Michael J. Armstrong
                              Regional Inspector General for Audit Services

Subject: OIG Draft Audit Report A-01-09-00528, “Review Of Jurisdiction A
Medicare Payments For Selected Durable Medical Equipment Claims With The KX
Modifier For Calendar Year 2007”

Dear Mr. Armstrong:

NHIC appreciates the opportunity to work with the Office of Inspector General on
this important issue facing DME contractors. Please find on the following pages our
response to the recommendations in the draft audit report cited above. If you have
any questions about NHIC’s response, please contact Jennifer Otten, Manager of
Audit & Controls, in Chico, California at 530-332-1169 (or at
jennifer.otten@hp.com).

Sincerely,


s/Andrew Conn
NHIC DME MAC Program Director

cc:       Jennifer Otten, NHIC, Corp.
          Karen Grasso, NHIC, Corp.
          Amy A. Capece, NHIC, Corp.
          Paul Hughes, MD, NHIC, Corp.
          Travis Moore, NHIC, Corp.
          Debbie Bach, NHIC, Corp.
          Martin Furman, CMS




                                                         NHIC, Corp.
                                                       75 Sgt. William B. Terry Drive
                                                             Hingham, MA 02043
                                                            A CMS CONTRACTOR
Message for Internal Use Only: The master copy of this document is stored in the NHIC ISO Documentation Repository. Any other copy, either
electronic or paper, is an uncontrolled copy and must be deleted or destroyed when it has served its purpose.

Document Name: NHIC DME MAC CMS Letterhead                                                                   Document No: TMP-ADM-0007
Release Date: 04/21/2009                                                                                     Version: 6.0
                                                                          Page 2 of 4

OIG Audit A-01-09-00528 Response (page 2 of 4)

Summary of OIG’s recommendations and NHIC’s response to each:

  1. Recommendation
     Recover the $5,296 in payments for specific DMEPOS items claimed for which
     the suppliers did not have the required documentation.

     NHIC Response
     NHIC concurs with this recommendation and will initiate recovery of the
     payments specified above.

  2. Recommendation
     Review other payments for DMEPOS related to our unallowable sample items
     and recover any additional unallowable payments.

     NHIC Response
     NHIC concurs with this recommendation and will investigate other claims
     from the sample group and recover any unallowable payments.

  3. Recommendation
     Notify CMS of the 24 suppliers who did not meet the supplier standard for
     maintaining proof of delivery so CMS can take appropriate action.

     NHIC Response
     NHIC concurs with this recommendation and will make the necessary
     referrals to the National Supplier Clearinghouse for the suppliers who did not
     meet the supplier standard of maintaining proof of delivery.

  4. Recommendation
     Develop a corrective action plan to improve supplier compliance with the KX
     modifier and potentially save an estimated $54 million.

     NHIC Response
     NHIC does not concur with this recommendation.

     In the report’s Summary of Findings it indicates that, “These errors occurred
     because NHIC’s electronic edits in place were not effective for determining
     whether suppliers had the required documentation on file when they used the
     KX modifier on claims.”

     This statement misrepresents what the KX modifier is intended to do. Absent
     performing a complex medical review of every claim submitted with a KX
     modifier, there is NO electronic edit (or any other automated tool) that can
     assure that a supplier actually is in possession of all required documents at
     the time a claim is submitted.
     The KX modifier is intended as a self-certification mechanism for the supplier
     and not an editing tool to determine the veracity and appropriateness of
     medical records documentation.
                                                                          Page 3 of 4

OIG Audit A-01-09-00528 Response (page 3 of 4)



     There are two benefits in the use of the KX modifier:

     (1) When used correctly by suppliers it allows for automated
     determinations, and correct coverage determinations can be made. This is
     demonstrated by the 37% of reviewed claims that were correctly paid.

     (2) When not used correctly, as identified in this report, it provides
     evidence that supports the position that a claim was falsely
     submitted, thereby making it easier to take appropriate action such as an
     administrative recovery or to prove a fraud/abuse allegation, etc.

     NHIC’s supplier education on the appropriate use of the KX modifier is
     extensive, timely and embedded throughout our many educational offerings
     such as our:
        • Jurisdiction A supplier manual
        • Local Coverage Determinations
        • DME MAC Jurisdiction A Resource
        • Medical Review articles
        • Website Frequently Asked Questions, Tutorials, and
        • Seminars and Outreach events

     As part of our ongoing educational efforts and activities on the proper use of
     the KX modifier and the necessity for appropriate documentation on file to
     support it, we may publish or make reference to the final report as a
     reminder to our community of the seriousness of the problem and of the
     Inspector General’s concerns regarding the abuse and/or neglect of the
     modifier’s intended use.

     The proper use of the KX modifier and the review of supporting
     documentation to determine if the KX modifier was appropriately submitted is
     an integral component of our clinical staff’s procedures when conducting
     complex medical review of claims.

     Finally, to further support error rate reduction, NHIC developed a RAC Work
     Plan. The RAC Work Plan recommended Jurisdiction A CERT error categories
     to be addressed through post-pay complex reviews:
        • Glucose Testing Supplies (A4253 and A4259)
        • Nebulizer w/ Compressor (E0570),
        • Oxygen Concentrators Portable Gaseous equipment (E1390 and
            E0431), and
        • Power Wheelchair (K0823).

     Two of these error categories (glucose supplies and power wheelchairs) have
     a KX modifier component. NHIC supports collaboration among contractors to
     reduce the claims payment error rate. By providing this recommendation to
     the RAC for Jurisdiction A, NHIC shares important information about those
                                                                     Page 4 of 4

OIG Audit A-01-09-00528 Response (page 4 of 4)

     categories of DMEPOS that contribute most to the overall claims payment
     error rate. Post payment review performed by the RAC, in conjunction with
     DME MAC MR complex medical reviews, serves to educate the supplier on the
     need for proper supporting documentation and prevent and recover improper
     payments.
